HHS/OIG-Audit--"Review of Grant Number 9OCT0017 ACF Discretionary Grant for the Period 09/30/1997 - 09/29/2000,"(A-07-01-001050)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Grant Number 9OCT0017 ACF Discretionary Grant for the Period
09/30/1997 - 09/29/2000," (A-07-01-01050)
July 25, 2001
Complete
Text of Report  is available in PDF format (141 KB). Copies can also
be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objectives were to access the achievement of the grant objectives and to determine
compliance with grant terms and conditions.  We determined that the Center
properly expended grant funds and generally met their objectives.